In the

Supreme Court of the United States
October Term, 2020
Salvador Diaz,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Salvador Diaz, requests leave to file the annexed
Petition for a Writ of Certiorari to the United States Supreme Court for the
Second Circuit without prepayment of costs and to proceed in forma pauperis
pursuant to Rule 39. The United States Court of Appeals for the Second
Circuit appointed counsel, Robin C. Smith, under the Criminal Justice Act of
1964, 18 U.S.C. Section 3006A, to represent Petitioner on July 26, 2019.
Petitioner, on information and belief, is indigent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

December 15, 2020
San Rafael, California

ROBIN C. SMITH, ESQ.
Law Office of Robin C. Smith,
Esq., P.C.
Attorney for Petitioner
802 B Street
San Rafael, California 94901
(415) 726-8000
rcs@robinsmithesq.com

